U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




              UNITED STATES PATENT

             AND TRADEMARK OFFICE 


        Independent Evaluation of USPTO’s
    Information Security Program Under the
Government Information Security Reform Act

                              Executive Summary


   Final Inspection Report No. OSE-15250/September 2002




                             PUBLIC
                             RELEASE



                           Office of Systems Evaluation

U.S. Department of Commerce                                                                      Final Inspection Report OSE-15250 

Office of Inspector General                                                                                         September 2002





                                                    TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1 


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 2 


FINDINGS...................................................................................................................................... 4


I.	   USPTO Should Report Information Security as a Material Weakness................................... 4


II.	 USPTO’s Top Leadership Has Made a Commitment to Improving Information Security..... 4

     A. Long-standing Information Security Weaknesses Require Senior Management 

        Attention............................................................................................................................ 4 

     B. The Director Is Taking Action to Support Information Security Improvements .............. 5


III.	 Incident Response Reporting and Handling Procedures Are Being Revised.......................... 6


IV.	 USPTO Program Officials and CIO Need to Ensure That Management Controls Are Fully

     Implemented............................................................................................................................ 6 

     A. Risk Assessments Have Not Been Completed, Security Plans Are Outdated, and 

         Controls Have Not Been Tested........................................................................................ 7 

     B.	 Systems Are Not Accredited ............................................................................................ 7 

     C. USPTO Is Taking Steps to Strengthen Management Controls ......................................... 8


V. 	 Improvements Are Needed in USPTO-Wide Security Program Implementation, Life Cycle 

     Management, Training, and Capital Investment Planning ...................................................... 9 

     A. Policies and Procedures Exist but Often Are Not Implemented ....................................... 9 

     B. Life Cycle Management Deficiencies Should Be Corrected............................................. 9 

     C. Information Security Awareness, Training, and Education Need Improvement ............ 10 

     D. Information Security Requirements Should Be Identified in Capital Asset Plans and 

        Linked to Security Cost Estimates .................................................................................. 11 

     E. USPTO Is Taking Action to Improve Security Program Implementation, Life Cycle 

        Management, Training, and Capital Investment Planning .............................................. 11


VI.	 Information Security Requirements Need to Be Included in USPTO’s Information 

     Technology Service Contracts............................................................................................... 12


VII. USPTO’s Corrective Action Plan Establishes a Solid Foundation for Improving Information 

     Security ............................................................................................................................... 13 

U.S. Department of Commerce                                                 Final Inspection Report OSE-15250 

Office of Inspector General                                                                    September 2002


                                            INTRODUCTION 


The Government Information Security Reform Act (GISRA), Title X, subtitle G, of the 2001
Defense Authorization Act (P.L. 106-398) was signed into law on October 30, 2000. This law
contains a subchapter that primarily addresses managing, implementing, overseeing, and
ensuring the security of unclassified and national security information systems.

GISRA requires (1) annual agency program reviews; (2) annual independent OIG evaluations;
(3) agency reporting of the results of OIG evaluations to the Office of Management and Budget
(OMB); and (4) an annual OMB report to Congress summarizing the agency materials received.

In accordance with OMB guidance, agency heads are to transmit to OMB both OIG’s
independent evaluation and the agency’s program review along with fiscal year budget materials.
As a performance-based organization, the United States Patent and Trademark Office (USPTO)
submits its budget materials and information security review separate from those of the
Department of Commerce. For FY01, we submitted the same independent evaluation for
USPTO as for the Department because our evaluation addressed the status and issues associated
with the Department as a whole, including USPTO. However, because USPTO is undertaking
actions separate from the Department’s to manage information security, we have reviewed
USPTO’s information security program separately in FY02. This report summarizes the results
of that separate review.

USPTO’s Fiscal Year 2001 GISRA Reporting

In conducting its own FY01 GISRA review, USPTO used NIST’s Security Self-Assessment
Guide for Information Technology Systems,1 as recommended by OMB. This guide establishes
five levels of program effectiveness—level 5 being the highest (see Figure 1)—and identifies
steps that must be taken to achieve each assessment level.


                 Level 1       Documented Policy
                 Level 2       Documented Procedures
                 Level 3       Implemented Procedures and Controls
                 Level 4       Tested and Reviewed Procedures and Controls
                 Level 5       Fully Integrated Procedures and Controls

Figure 1. Levels of Information Security Effectiveness

Based on its self-assessment, USPTO reported for FY01 that tested and reviewed information
security procedures and controls were in place for all of its systems. That is, USPTO rated itself
at level 4, stating, “With current funding levels, USPTO will meet 75 percent of level 5

1
 National Institute of Standards and Technology. August 2001. Security Self-Assessment Guide for Information
Technology Systems, NIST Special Publication 800-26. Gaithersburg, MD: NIST.

                                                       1

U.S. Department of Commerce                                                   Final Inspection Report OSE-15250 

Office of Inspector General                                                                      September 2002


compliance of GISRA at the end of FY 2002. However, we expect to achieve 100 percent
compliance by the end of FY 2003.”

In reviewing the information supporting the self-assessment, we found that USPTO merited an
overall score of no more than level 2, and our independent evaluation results, presented here,
confirm this rating. In FY02, USPTO reassessed its status and told us that, consistent with our
evaluation, it now considers itself at level 2.

                          OBJECTIVES, SCOPE, AND METHODOLOGY

We sought to determine whether USPTO’s information security program and practices comply
with the requirements of GISRA, which mandates that federal agencies have effective security
measures for the information resources that support their operations. Our evaluation for FY02 is
based on the results of the following OIG reviews and audits:

        •	   Additional Senior Management Attention Needed to Strengthen USPTO’s Information
             Security Program, Final Inspection Report No. OSE-14816/March 2002. Evaluation
             of organization-wide information security policies and procedures, staff roles and
             responsibilities, and the program’s compliance with applicable laws, regulations, and
             guidance.

        •	   Stronger Management Controls Needed for the Patent Application Capture and
             Review Automated Information System, Inspection Report No. OSE-14926/August
             2002. Evaluation of information security controls for the Patent Application Capture
             And Review (PACR) system, which captures, stores, and maintains digital images of
             U.S. patent applications, and retrieves and prints these documents as needed. USPTO
             relies on the highly sensitive PACR system for day-to-day operations.

        •	   Improvements Needed in the General Controls Associated with USPTO’s Financial
             Management Systems, Audit Report No. FSD-14477-2-0001/February 2002. Audit of
             general controls associated with the IT processing environment conducted as part of
             OIG’s FY01 financial statements audit. This report included a follow-up review of
             the general controls associated with the Revenue Accounting and Management
             System and the Federal Financial System (U.S. Geological Survey’s standardized
             financial system that provides financial services to USPTO), and an examination of
             the controls over USPTO’s public key infrastructure environment.2




2
 A public key infrastructure enables users of an unsecured public network such as the Internet to securely and
privately exchange data and money through the use of a public and private cryptographic key pair that is obtained
and shared through a trusted authority.

                                                         2

U.S. Department of Commerce                                      Final Inspection Report OSE-15250 

Office of Inspector General                                                         September 2002


       •	   Network Vulnerability Assessment Improvements Needed in the General Controls
            Associated with USPTO’s Financial Management Systems, Audit Report No. FSD
            14477-2-0003/March 2002. Also part of OIG’s FY01 financial statements audit, this
            review was a limited network vulnerability assessment of USPTO’s local area
            network, PTONet.

We conducted our evaluation using the following criteria: NIST’s Security Self-Assessment
Guide for Information Technology Systems, GISRA, the Computer Security Act, and OMB
Circular No. A-130, “Management of Federal Information.” An OIG contractor conducted the
general control reviews of financial systems and related networks, using GAO’s Federal
Information System Controls Audit Manual as a guide.

The structure and content of this report respond to guidance provided by OMB in Reporting on
the Government Information Security Reform Act. The report is being issued in final because it
is based primarily on prior OIG work that has been presented in previous reports and because it
makes no new recommendations. We do not address critical infrastructure issues because
USPTO has no assets considered critical under the critical infrastructure protection program.

We performed our work in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on
Integrity and Efficiency.




                                               3

U.S. Department of Commerce                                       Final Inspection Report OSE-15250 

Office of Inspector General                                                          September 2002


                                           FINDINGS


I. 	 USPTO Should Report Information Security as a Material Weakness

GISRA requires that significant deficiencies in security policy, procedures, or practices be
reported as material weaknesses. OMB Circular A-130, Appendix III, “Security of Federal
Automated Information Resources,” instructs agencies to identify security deficiencies pursuant
to OMB Circular A-123, “Management Accountability and Control,” if it is determined that
there is no assignment of security responsibility, no security plan, or no accreditation. The
agency’s decision to report a material weakness should depend on the risk and magnitude of
harm posed by the weakness. Failure to report significant information security weaknesses could
result in the failure to mitigate unacceptably high security risks.

As discussed in this report, our evaluation found that USPTO lacks up-to-date security plans and
current accreditations for its operational systems; in our opinion, USPTO should consider
information security a material weakness. We recommended that USPTO determine whether
this area is a potential material weakness to be brought to the attention of the Department, which
would then determine whether it is significant enough to report to the President and Congress.
Additionally, we recommended that USPTO revise its information security policy to identify
information security deficiencies that are material weaknesses pursuant to OMB Circular A-123
and the Federal Managers’ Financial Integrity Act (FMFIA), and bring them to the Department’s
attention.

USPTO has agreed to revise its information security policy and will develop an administrative
order that defines the process for identifying and reporting material weaknesses to the
Department. USPTO officials told us that in reporting to the Department under OMB Circular
A-123 and FMFIA for FY02, they are seriously considering identifying information security as a
material weakness, but have made no decision yet. Until all of USPTO’s mission-critical
systems are accredited, we believe that information security should be reported as a material
weakness.

II. 	 USPTO’s Top Leadership Has Made a Commitment to Improving Information
      Security

A. 	 Long-standing Information Security Weaknesses Require Senior Management Attention

To safeguard the privacy, confidentiality, and security of federal information, GISRA makes the
head of an agency responsible for ensuring that security plans for the agency’s information
systems are in force throughout each system’s life cycle and promoting security as an integral
component of that agency’s business operations. Our evaluation found that, until recently,
information security had not received adequate attention at USPTO. As a result, significant
weaknesses exist in planning, budgeting, implementing, reviewing, and overseeing this area.




                                                4

U.S. Department of Commerce                                        Final Inspection Report OSE-15250 

Office of Inspector General                                                           September 2002


Specifically, we found a lack of follow-through in carrying out fundamental responsibilities,
including

   •	   identifying, assessing, and understanding risks to IT assets;

   •	   determining security needs commensurate with levels of risk;

   •	   planning, implementing, and testing controls that adequately address risk;

   •	   promoting continued awareness of information security risk and providing appropriate
        training;

   •	   continually monitoring and evaluating information security policy and the effectiveness
        of related practices; and

   •	   integrating security into capital planning and investment control processes.

Since the time of our evaluation, the Under Secretary of Commerce for Intellectual Property and
Director of USPTO has made a commitment to protect the bureau’s information assets and is
devoting additional attention and resources to this area.

B. 	The Director Is Taking Action to Support Information Security Improvements

In our report, Additional Senior Management Attention Needed to Strengthen USPTO’s
Information Security Program, we noted that the awareness, support, and proactive involvement
of USPTO’s senior management are essential to establishing the environment and ensuring the
resources needed to promote an effective information security program. We recommended that
the USPTO Director ensure that senior management officials give information security high
priority, sufficient resources, and their personal attention; work closely with the USPTO chief
information officer (CIO) to improve information security; and be provided with explicitly
defined and documented information security responsibilities.

The Director agreed with these recommendations. According to the corrective action plan
USPTO submitted in response to the above-cited OIG report, the CIO regularly briefs the
Director and the Executive Committee on the status of efforts to strengthen information security.
Because this committee deals with all budget issues and reviews the strategic information
technology plan, no significant IT investment can be made without its concurrence. Therefore,
USPTO has a structure in place to ensure that information security is planned for all significant
IT investments and receives appropriate attention throughout an investment’s life cycle.

Additionally, the Director has authorized the CIO to add six information security staff positions,
has reallocated FY02 funding for information security program improvements, and is seeking
increases in base spending for information security. The Director has also approved several
initiatives to revise information security operations and controls (see page 13) and to provide a

                                                 5

U.S. Department of Commerce                                                  Final Inspection Report OSE-15250 

Office of Inspector General                                                                     September 2002


framework for improving overall compliance with the requirements for management and
operational controls.

USPTO’s new strategy, presented in The 21st Century Strategic Plan,3 further demonstrates the
Director’s commitment to improving information security. Referring to the OIG reports on
which our independent evaluation is based, the plan states that USPTO is not in compliance with
the law and that because information security has not yet become an integral part of USPTO’s
business operations, fundamental IT security responsibilities are frequently not carried out. The
plan concludes that the implication of not being compliant with GISRA is that neither internal
nor external customers can trust USPTO’s automated information systems and presents tasks,
milestones, and a schedule for correcting this problem that are consistent with our
recommendations. It also proposes using data replication for disaster recovery, an important
element of information security.

III. Incident Response Reporting and Handling Procedures Are Being Revised

OMB Circular A-130 requires agencies to establish formal incident response mechanisms for
evaluating and responding to security incidents in a manner that protects their own information
and that of others who might be affected by the incident. GISRA expands on this policy by
requiring agencies to notify and consult with law enforcement officials, other offices and
authorities, and the General Services Administration’s Federal Computer Incident Response
Center (FedCIRC) when such an incident occurs.

We found that USPTO’s documentation of response procedures for information security
incidents is consistent with OMB Circular A-130. Its documents appropriately identify roles and
responsibilities, define incident types and severity levels, and have reporting requirements.
However, USPTO does not require that OIG and external security offices and authorities be
notified or consulted. For the period from October 2000 to October 2001, USPTO recorded
several high-severity information security incidents, but did not report any to FedCIRC or OIG.

We recommended that USPTO revise its incident handling procedures to include the reporting of
such events to both FedCIRC and OIG. USPTO agreed and will implement this
recommendation by reporting incidents to the Department, which will then relay the information
to FedCIRC and OIG, as appropriate.

IV. 	      USPTO Program Officials and CIO Need to Ensure That Management Controls
           Are Fully Implemented

GISRA requires agency managers and program officials to ensure that effective information
security policies and procedures are implemented throughout the life cycle of every IT system.
The agency CIO is required to assist other senior officials with their information security
responsibilities, as well as ensure that effective policies and procedures are implemented for the
systems that support the CIO’s functions. Our evaluation found that program officials have not

3
    U.S. Patent and Trademark Office, June 3, 2002. The 21st Century Strategic Plan. Washington, DC: USPTO.
                                                         6

U.S. Department of Commerce                                                     Final Inspection Report OSE-15250 

Office of Inspector General                                                                        September 2002


given sufficient attention to the security of the information assets that support their operations.
The first two sections of this finding discuss the observations and recommendations we made as
a result of our fieldwork; the third section addresses the steps that USPTO has taken or planned
in response.

A. 	       Risk Assessments Have Not Been Completed, Security Plans Are Outdated, and
           Controls Have Not Been Tested

Program officials are responsible for information security management controls—assessing the
risks to the operations and assets over which they have authority, determining the level of
information security to protect such operations and assets, and periodically testing and evaluating
information security controls and techniques. As shown in Figure 2, at the time of our
evaluation, 64 of USPTO’s 78 operational systems4 (or 82 percent) lacked documented risk
assessments, and the security plans for 24 of those systems (30 percent) were more than 3 years
old. Systems supporting the missions of program officials and the CIO lacked up-to-date risk
assessments and security plans. We recommended that USPTO conduct, document, and keep
current, risk assessments for all operational systems; develop up-to-date security plans for these
systems; and implement a program stipulating periodic reviews and evaluations of the
effectiveness of information security controls.




                    100%                                                        % Incomplete
                     80%                                                        % Complete

                     60%
                     40%
                     20%
                      0%
                           Risk Assessments Security Plans         Systems
                                                                  Accredited



Figure 2. Status of USPTO’s Key Information Security Management Controls at Time of
          OIG Evaluation (December 2001)


B.      Systems Are Not Accredited

OMB Circular A-130 requires management officials to formally authorize the use of a system
before it becomes operational. This authorization, also referred to as accreditation, denotes that
the manager understands and accepts responsibility for the risks associated with putting the
system into operation. The authorization is based on an assessment of the system’s management,

4
    Since the time of our evaluation, USPTO has revised its system inventory.
                                                             7

U.S. Department of Commerce                                        Final Inspection Report OSE-15250 

Office of Inspector General                                                           September 2002


operational, and technical controls. Because the security plan establishes and documents the
system protection requirements and the security controls in place, it forms the basis for
management's decision to authorize processing. A system should be reauthorized following any
significant change or at least every three years, and more often where risk and potential
magnitude of harm are high.

At USPTO, accreditation is a shared responsibility. The project manager, system development
manager, and information system security officer are responsible for preparing and submitting an
accreditation package that includes a statement certifying that security controls, features, and
procedures are activated and working as required. The CIO and the program sponsor have
approval authority for accreditation and determine whether system controls are adequate and
level of risk is acceptable based on an evaluation of this package.

We found that none of USPTO’s operational systems has a current authorization to process
(accreditation), and until recently, little attention was given to accreditation. The lack of
accreditation indicates that management has neither formally reviewed the controls nor explicitly
accepted the associated risk. As a result, USPTO lacks assurance that its operational systems are
adequately protected.

We recommended that USPTO prioritize all operational systems according to risk and
importance, accredit all high-risk systems by the end of fiscal year 2002, and accredit all
remaining systems by the end of fiscal year 2003. We also recommended that accreditations be
updated at least every three years or whenever a significant change in a system occurs.

C. USPTO Is Taking Steps to Strengthen Management Controls

USPTO responded to our recommendations by providing funding and developing approaches to
address the problems we identified. Specifically, the CIO has initiated a pilot project to establish
a certification and accreditation process for five information systems. As part of the process, risk
assessments, security plans, and contingency plans are being prepared, and security tests and
evaluations performed. The pilot will validate staffing and cost estimates for USPTO’s
information security program budget request. After the pilot is completed, the process will be
extended to USPTO’s other information systems.

USPTO preliminarily ranked its systems by risk and criticality, but concluded that it cannot
achieve the accreditation schedule we had recommended. Instead, it plans to accredit all high-
risk systems by the end of FY03 and the remaining systems by the end of FY04. Because of the
large amount of work USPTO has to perform to complete the accreditations and the importance
of employing a meaningful and effective accreditation process, we agreed with this timetable.
USPTO does, however, intend to have up-to-date security plans for all of its systems by the end
of FY02 and to update them on a 3-year cycle as part of certification and accreditation.




                                                 8

U.S. Department of Commerce                                       Final Inspection Report OSE-15250 

Office of Inspector General                                                          September 2002




V. 	   Improvements Are Needed in USPTO-Wide Security Program Implementation, Life
       Cycle Management, Training, and Capital Investment Planning

GISRA requires agency CIOs to administer the information security program agencywide, a
process that entails developing the security program, ensuring it is effectively implemented and
maintained, and training and overseeing personnel who have significant responsibilities for
information security. Our evaluation found that USPTO needs improvements in all of these
areas. The first four sections of this finding discuss the observations and recommendations we
made as a result of our fieldwork; the fifth section addresses the steps that USPTO has taken or
planned in response.

A. 	   Policies and Procedures Exist but Often Are Not Implemented

We found that USPTO generally has documented policies and procedures in place that are
consistent with accepted security practices. However, as the foregoing discussions show, often
these policies and procedures are not implemented. Moreover, the CIO needs to work with other
senior agency officials to periodically evaluate the effectiveness of USPTO’s information
security program, including testing control techniques.

B.	    Life Cycle Management Deficiencies Should Be Corrected

Security Effects of Network Upgrade Were Not Well Planned

During our evaluation of PACR, USPTO was transitioning from its local area network (LAN),
PTONet, to the more capable and technologically current PTONet II. Because USPTO’s LAN
supports patent application processing, the transition required changes to PACR network
components and related software.

However, these changes were not well planned and did not adequately consider network security
implications. Just prior to the initial transition step for PACR, USPTO was unable to identify
required software changes and necessary modifications to firewall rules. Furthermore, the
information system security officer was unaware that these changes were about to be made, even
though he was also the acting director of the Office of Information Systems Security, which is
responsible for reviewing and authorizing proposed firewall changes.

USPTO issued draft procedures for implementing PACR network and firewall changes after
initial transition attempts failed. Since the conclusion of our fieldwork, USPTO successfully
completed the transition of PACR to PTONet II. USPTO needs to better plan and coordinate IT
changes that affect the security of interconnected systems.




                                                9

U.S. Department of Commerce                                                  Final Inspection Report OSE-15250 

Office of Inspector General                                                                     September 2002


Documentation Was Inaccurate

System documentation should be current and accurate to support testing, training, modification,
and maintenance. The quality and utility of supporting documentation is a primary measure of
the health and well-being of a software project.5

In our review of PACR, we found that although security plans had been developed, USPTO was
unable to provide official sign-off pages or documented Technical Review Board6 action to
indicate that any of these plans had been officially approved. Moreover, in examining the
available system documentation for our PACR review and attending briefings provided by
USPTO, we found that

     •	   the documentation did not reflect the current system;

     •	   network topology diagrams, four in all, had the same issue date but each differed from
          the others and none accurately described the then-current or planned topology; and

     •	   discrepancies existed between the network topology diagrams, equipment lists, and points
          of contact specified in the High-level Architecture document and Operational Support
          Plan.

In looking at USPTO’s management system for IT documentation, we found problems with
security documentation for other systems as well. We recommended that documentation be
updated to reflect the current operational system, and a process to track document approval be
established and enforced.

C.        Information Security Awareness, Training, and Education Need Improvement

USPTO’s information security awareness program covers the areas identified by OMB Circular
A-130 and other applicable guidance; at the time of our fieldwork however, awareness training
was a one-time occurrence and only for new employees. Follow-on security awareness
information is provided via the static log-on screen-warning banner with references to the Rules
of the Road Services Guide. OMB Circular A-130 notes that attention to security tends to
dissipate over time. NIST guidance states that a stimulus used repeatedly will eventually be
selectively ignored. Therefore, we recommended that USPTO provide periodic refresher training
to all employees to assure that they continue to understand and abide by the applicable rules.

In addition, USPTO does not have an adequate training and education program for personnel
who need specialized security skills and competencies. Information security officers and other
employees who have security responsibilities receive some relevant training, but that training is
not sufficient, and USPTO lacks a formal program for giving employees security training
5
  Fairley, R. 1985. Software Engineering Concepts. New York: McGraw-Hill, p. 220.
6
  The Technical Review Board conducts reviews of work products and plans during the life cycle of an information
system. The board is chaired by the deputy CIO and attended by the systems development manager for the project
from the CIO’s office and the project manager from the project sponsor’s business unit.
                                                       10

U.S. Department of Commerce                                       Final Inspection Report OSE-15250 

Office of Inspector General                                                          September 2002


applicable to their job function. Without such a program, USPTO cannot ensure that employees
who have security responsibilities, including its security professionals, understand and apply
information security practices effectively. We recommended that USPTO establish a formal
training program that gives all personnel who have significant security responsibilities an
understanding of those responsibilities and of information security risks.

D. 	   Information Security Requirements Should Be Identified in Capital Asset Plans and
       Linked to Security Cost Estimates

Under GISRA, agencies must identify and budget for security measures and resources needed to
protect IT investments, starting from the earliest planning stages and throughout the investment
life cycle. OMB Circular A-11, which governs preparing and submitting budget estimates,
stipulates that security costs be presented in Exhibit 53, “Agency IT Investment Portfolio,” as a
percentage of the total system cost or project investment and that capital asset plans be provided
in Exhibit 300, “Capital Asset Plan and Business Case,” indicating whether the project’s security
meets GISRA requirements and describing the security and privacy measures to be used.

However, USPTO did not identify security costs for any individual system in its FY02 or FY03
budget submissions. Even if a security funding request had been included, the amount would
have been questionable because USPTO had not conducted an accurate, thorough analysis of
current security needs or of the cost of satisfying them. Furthermore, FY02-FY07 budget
formulation guidance provided by USPTO’s Office of the Chief Information Officer did not
contain instructions for incorporating security costs into budget formulations.

A lack of support within USPTO for information security funding has been cited as the reason
for deficiencies in such areas as system accreditations and training. We believe that poorly
substantiated budget requests have contributed to this problem. Without sound analysis, USPTO
cannot justify funding needed to plan and implement required security improvements. We
recommended that USPTO explicitly identify information security requirements and costs on a
system-specific basis in funding requests to OMB

E. 	   USPTO Is Taking Action to Improve Security Program Implementation, Life Cycle
       Management, Training, and Capital Investment Planning

In addition to strengthening management controls (see Finding IV), the CIO is working to
improve overall information security operations by restructuring the Office of Information
System Security and enhancing other areas we identified as problematic: (1) policies that govern
information security practices, (2) programs for training employees and contractors, and
(3) processes for budgeting and planning for IT capital assets.

Office of Information System Security Restructuring. The CIO is separating policy and
compliance functions from security operations—a move that should increase the office’s
effectiveness—and is adding six new staff positions. Pending adequate staffing, the office has
been headed by an acting IT security program manager who reports directly to the CIO and is
responsible for managing USPTO’s information security improvement efforts. To remain in
                                               11

  U.S. Department of Commerce                                          Final Inspection Report OSE-15250 

  Office of Inspector General                                                             September 2002


  compliance with GISRA, this senior information security official should report to the CIO on a
  permanent basis.

  Policies. In order to provide the basic foundation for information security, the CIO is preparing
  an administrative order that will describe USPTO’s information security policies and clarify staff
  roles and responsibilities. The CIO has also begun working with information security program
  managers to develop procedures for periodically evaluating the effectiveness of information
  security controls. Procedures for controlling security documentation are to be revised by the end
  of the calendar year.

  Training. All USPTO employees and contractors completed security awareness training as of
  June 30, 2002. A working group is developing a plan for providing information security training
  that is specific to the individual responsibilities of all USPTO employees, with training for
  managers and technical personnel to begin in late September 2002. A database has been
  established to track employee training.

  Budgeting and Planning. An information security budget has been developed that allocates 

  funding for many needed improvements including 

       • certification and accreditation,
       • self-assessments using the NIST Self-Assessment Guide,
       • compliance testing of a sample of information systems,
       • design and implementation of a host-based intrusion detection system,
       • contractor support for correction of information system vulnerabilities, and
       • information security training for users, managers, and technical personnel.

   The Office of the CIO’s budget system has been enhanced so that information security costs can
   be budgeted and tracked for each system, and funding for information security has been
   included in each system’s budget plan.

VI. 	   Information Security Requirements Need to Be Included in USPTO’s Information
        Technology Service Contracts

  As outsourcing of IT services increases, the risk of security violations by contractorswhether
  inadvertent or deliberatealso grows. In last year’s GISRA report, we identified problems with
  information security in IT service contracts, most notably, a lack of sufficient policy and
  guidance to ensure that contract documents for IT services contain adequate information security
  provisions. In FY02, we examined this weakness in greater detail: we reviewed 40 of the
  Department’s IT service contracts, including some awarded by USPTO, and found that
  provisions to safeguard sensitive but unclassified systems and information were either
  insufficient or nonexistent. Based on the results of this sample, it is likely that the majority of IT
  service contracts throughout the Department lack needed information security provisions.
  Contracting officers and other acquisition team members need sufficient guidance and training,
  as well as support from technical experts and program officials, to ensure that they prepare and
  administer IT service contracts in a way that makes clear and enforceable the contractor’s
  responsibility and accountability for safeguarding the government’s information assets.
                                                   12

 U.S. Department of Commerce                                        Final Inspection Report OSE-15250 

 Office of Inspector General                                                           September 2002


 We recommended that the Department of Commerce’s Chief Financial Officer and Assistant
 Secretary for Administration take the necessary actions to ensure that all contracting offices
 within Commerce, including USPTO, include adequate information security provisions in all IT
 service contracts in order to protect the Department’s sensitive IT information and assets.
 Specifically, we urged the Department to establish standard contract provisions for safeguarding
 the security of unclassified systems and to disseminate clear, detailed policy for acquiring these
 systems and services.

 We further recommended that such policy require contracting offices—with assistance from the
 Department’s Office of the CIO—to assess the information security risk associated with the
 proposed service or system during the acquisition planning phases; identify and include
 appropriate information security requirements in specifications and work statements; monitor
 contractor performance to ensure compliance with information security requirements; and
 terminate the contractor’s access to systems and networks once the contract is closed out. We
 also advised the Department to review all current contracts and solicitations for IT services to
 determine whether information security provisions should be added to them, even though such
 revisions may increase contract costs, and to ensure that all procurement personnel have
 appropriate training in information security. The CFO agreed with our recommendations and is
 taking actions to implement them.

 Officials in USPTO's Office of Procurement told us that they generally agree with the findings
 and recommendations contained in our report pertaining to ensuring that adequate information
 security provisions are included in all IT service contracts and providing appropriate training in
 information security. They indicated, however, that due to USPTO's unique status, it may not be
 subject to some of the specific documents and policies identified in the report and intend to get
 input from the Office of the CIO. The Offices of Procurement and CIO need to work together,
 along with program officials, to ensure that adequate information security requirements are
 included and followed in all of USPTO's IT service contracts.

VII. 	 USPTO’s Corrective Action Plan Establishes a Solid Foundation for Improving
       Information Security

 In FY02, USPTO completely reworked its GISRA corrective action plan so that it lays out a
 cohesive roadmap for improving information security. USPTO’s plan is organized by the three
 control areas—management, operational, and technical—identified in NIST’s Security Self-
 Assessment Guide. The plan goes beyond the recommendations in our reports to identify
 additional actions needed in each control area for achieving a comprehensive information
 security program. Actions are added to the plan as new requirements are identified.

 While USPTO has completed or is expecting to meet the schedule for about 80 percent of the
 milestones in its action plan, some important milestones are slipping. These include developing
 the administrative order on information security policies, completing the certification and
 accreditation pilot project, developing system-level procedures, and preparing a disaster recovery
 plan for USPTO’s infrastructure.


                                                 13

U.S. Department of Commerce                                       Final Inspection Report OSE-15250 

Office of Inspector General                                                          September 2002


We believe, however, that USPTO is making a determined effort to improve its information
security program and meet its milestones. Some of the delay is attributable to USPTO’s attempt
to instill information security processes that will yield quality products and provide the needed
degree of assurance. We anticipate that USPTO’s rate of progress will increase as it hires a
permanent IT security manager, fills its new information security positions, and continues to give
senior management attention to this area.




                                               14

